SUPREME COURT OF THE UNITED STATES
NO. 20-1507
ASSOCIATION OF NEW JERSEY RIFLE & PISTOL
CLUBS, INC.; AND BLAKE ELLMAN,
Petitioners,
v.
ANDREW J. BRUCK, ACTING ATTORNEY
GENERAL OF NEW JERSEY, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief
in Opposition contains 6,967 words, excluding the parts of the document
that are exempted by Supreme Court 33.1(d).
I declare under penalty of perjury that the forgoing is true and
correct.

JEREMY M. FEIGENBAUM

Date: August 11, 2021

